               U.S. Department of Agriculture

                  Office of Inspector General
                              Western Region




     Audit Report
Food and Nutrition Service
  Food Stamp Program
   ALERT Watch List




                     Report No. 27099-32-SF
                                  July 2006
                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250




DATE:          July 28, 2006

REPLY TO
ATTN OF:       27099-32-SF

TO:            Roberto Salazar
               Administrator
               Food and Nutrition Service

ATTN:          Lael Lubing
               Director
               Grants Management Division

FROM:          Robert W. Young
               Assistant Inspector General \s\
                for Audit

SUBJECT:       ALERT Watch List



This report presents the results of our audit of the Food and Nutrition Service’s Anti-Fraud
Locator using EBT Retailer Transactions (ALERT) Watch List. Your July 12, 2006, response
to the draft audit report is included as exhibit A to the report. Excerpts from your response and
the Office of Inspector General’s positions have been incorporated into the relevant sections of
the report.

We agree with your management decisions on all recommendations. Please follow your
internal agency procedures in forwarding final action correspondence to the Office of the Chief
Financial Officer.

We appreciate the cooperation and assistance provided by your staff during the audit.
Executive Summary
Food and Nutrition Service, Food Stamp Program, ALERT Watch List
(Audit Report No. 27099-32-SF)

Results in Brief                    In part to address fraud in the Food Stamp Program, the Food and Nutrition
                                    Service (FNS) replaced paper coupons with electronic benefits transfer
                                    (EBT) cards. With EBT systems, benefits are transacted electronically, so
                                    FNS has access to information about every transaction. FNS’ ALERT 1
                                    system analyzes this data to detect patterns that indicate fraud, then assigns
                                    each store a score reflecting the likelihood that the store is engaging in fraud.
                                    FNS officials and staff we interviewed considered ALERT to be a highly
                                    valuable tool for identifying potential fraud.

                                    In 2002, FNS implemented a subsystem of ALERT, called the Watch List,
                                    which targets specific stores for review. The Watch List is a compilation of
                                    stores which generally have the highest ALERT scores. Our overall objective
                                    was to evaluate the Watch List as a tool for identifying fraud. We could not
                                    make this assessment because the information necessary to do so was not
                                    available in ALERT. The unavailability of this information also precluded
                                    FNS from assessing the Watch List’s effectiveness, including evaluating
                                    whether stores with high ALERT scores were determined to be violating
                                    program requirements.

                                    FNS field office staff are required to review each new Watch List store,
                                    assess the data that caused it to be flagged by ALERT, and take the
                                    appropriate action. If the data do not indicate potential trafficking, the store
                                    will not require any further review, and FNS will place it into a suspense
                                    status in the Watch List system. However, if the data do indicate potential
                                    violations, further action is required. This may include field office staff
                                    collecting and analyzing additional transaction data for the store. FNS has the
                                    authority to impose sanctions (such as disqualifying the store from the
                                    program or assessing it a monetary penalty) based on suspicious transaction
                                    patterns that the store owner is unable to satisfactorily explain. In other cases,
                                    field office staff will refer stores to FNS’ Retailer Investigations Branch to
                                    gather additional evidence before making a determination on the store.

                                    FNS does not record all information about actions taken (i.e., disposition
                                    data) on individual Watch List stores in ALERT. The details of specific
                                    compliance actions taken are recorded in the Store Tracking and Redemption
                                    System (STARS). However, STARS does not contain information on
                                    ALERT rankings, and the ALERT system was not capable of providing a
                                    universe of Watch List stores for a prior point in time which could be

1
    Anti-Fraud Locator Using EBT Retailer Transactions

USDA/OIG-AUDIT/27099-32-SF                                                                                       Page i
                  validated to STARS data. We believe FNS needs this information in ALERT
                  to assess the Watch List’s effectiveness in identifying fraud. For example, we
                  believe that FNS should be able to determine how many of the stores
                  appearing on the Watch List were ultimately found to have violated program
                  requirements, and for those stores, what specific actions were taken on them.

                  We found that FNS staff was expending resources reviewing stores that did
                  not merit it. During interviews, FNS staff expressed concerns that too many
                  “false hits” were appearing on the Watch List, and provided us specific
                  examples to substantiate their concerns. (False hits are stores appearing on
                  the Watch List that do not warrant review because their transaction patterns
                  represent the normal, legitimate practices of the store.) By analyzing data on
                  the disposition of Watch List stores, FNS could also gauge the extent of this
                  problem, and then develop measures to minimize it.

                  Disposition data could also help FNS assess the reliability of ALERT ranks.
                  Higher ALERT scores are intended to indicate a greater potential that the
                  store is trafficking, but FNS does not currently have the data to confirm
                  whether this is actually the case. By analyzing the outcomes of Watch List
                  stores, sorted according to ALERT ranks, FNS could assess the correlation
                  between rank and outcome, potentially helping it to improve the ranking
                  process. We had planned on conducting this type of analysis during the audit
                  but were unable to do so due to the unavailability of data on the disposition
                  of Watch List stores.

                  We also determined that categories used by FNS to classify stores in its
                  systems did not always group similar stores together. This impacts ALERT
                  and the Watch List because some of the analyses compare an individual
                  store’s transactions to the averages for other stores in the same category. The
                  store’s transactions may appear normal when included in a category that
                  contains too many dissimilar stores, but indicate fraud when compared only
                  to the transactions of similar stores. As a result, FNS has reduced assurance
                  that the Watch List identified all the stores it should have. In addition, FNS
                  had not developed standard definitions for the categories, which caused FNS
                  staff either to miscategorize stores or to categorize them inconsistently.
                  Together, these conditions impacted the reliability of the ALERT scans, and
                  therefore FNS’ ability to identify noncomplying stores.

                  Prior to our audit, FNS had addressed these concerns by developing revised
                  store categories and definitions. However, because many of the
                  approximately 160,000 participating stores will have to be manually
                  converted to the new categories, a highly labor-intensive process, conversion
                  will require significant time and staff resources to accomplish. For this
                  reason, FNS has not yet put the revisions in place.



USDA/OIG-AUDIT/27099-32-SF                                                                 Page ii
Recommendations
in Brief        We recommend that FNS:

                   •   Program the ALERT system to provide data on the disposition of stores
                       appearing on the Watch List, to allow an analysis of the Watch List’s
                       effectiveness.

                   •   Develop a plan and timeframe for implementing the new store type
                       categories, and distribute guidance which defines store type categories
                       to all field office staff.

Agency Response   In its July 12, 2006, written response to the draft report, FNS agreed with the
                  report’s findings and recommendations. FNS is currently working on
                  enhancements to the ALERT system which are intended to reduce the
                  number of false hits and allow system effectiveness to be measured. FNS
                  expects to have the capability to generate reports on system effectiveness by
                  January, 2007, and to make system adjustments based on the enhancements
                  by February 2007.

                  FNS is also in the process of developing firm (store) type definitions, which
                  it intends to implement by June, 2007.

OIG Position      We accept FNS’ management decision on all recommendations.




USDA/OIG-AUDIT/27099-32-SF                                                                 Page iii
Abbreviations Used in This Report

ALERT        Anti-fraud Locator using EBT Retailer Transactions
EBT          Electronic Benefits Transfer
ESSRA        Extract System for STARS, REDE, and ALERT
FNS          Food and Nutrition Service
OIG          Office of Inspector General
OMB          Office of Management and Budget
REDE         Retailer Electronic Data Exchange
STARS        Store Tracking and Redemptions System




USDA/OIG-AUDIT/27099-32-SF                                        Page iv
Table of Contents
Executive Summary................................................................................................................................. i

Abbreviations Used in This Report...................................................................................................... iv

Background and Objectives................................................................................................................... 1

Findings and Recommendations ........................................................................................................... 3

    Section 1. Watch List...................................................................................................................... 3

        Finding 1             FNS Has Not Assessed the Effectiveness of the Watch List .................................. 3
                                 Recommendation 1 .......................................................................................... 5
        Finding 2             FNS Needs to Implement Revised and Well-Defined Store Categories................. 5
                                 Recommendation 2 .......................................................................................... 7
                                 Recommendation 3 .......................................................................................... 7

Scope and Methodology ......................................................................................................................... 8

Exhibit A – Agency Response................................................................................................................ 9




USDA/OIG-AUDIT/27099-32-SF                                                                                                                 Page v
Background and Objectives
Background                             The Food and Nutrition Service’s (FNS) Food Stamp Program helps low-
                                       income families buy nutritious foods by providing them benefits that can
                                       be redeemed at authorized stores. 2 Unfortunately, some recipients and
                                       stores collude to defraud the program by trading benefits for cash instead
                                       of food. For example, a retailer may charge the recipient’s account for $50
                                       in benefits, give the recipient $25 in cash, and keep the difference.

                                       In part to address this problem, FNS replaced paper benefits (i.e., food
                                       stamp coupons) with electronic benefits transfer (EBT) cards, which work
                                       like bank cards. Each State has an EBT system to which terminals in stores
                                       are connected. The system verifies that benefits are available before
                                       authorizing a transaction and debits the recipient’s account for each
                                       completed transaction. Because benefits are transacted electronically, these
                                       systems provide FNS with detailed data on every food stamp transaction.
                                       FNS then analyzes this data to uncover patterns indicative of fraud.

                                       FNS implemented the Anti-Fraud Locator Using EBT Retailer
                                       Transactions (ALERT) system in 1996 to perform this fraud analysis. Each
                                       State regularly sends data from its EBT system to ALERT, which subjects
                                       the data to a number of scans to identify suspicious patterns. Each store is
                                       assigned a score— an ALERT rank—based on the scans. FNS regions have
                                       the ability to adjust the scans to suit local conditions since patterns of abuse
                                       vary relative to local conditions (i.e., patterns indicating fraud in one
                                       location may not in another).

                                       In 2002, FNS implemented a subsystem of ALERT called the Watch List.
                                       The Watch List compiles all the stores meeting predefined parameters
                                       (generally, those with the highest ALERT ranks), called pending stores,
                                       into a single list for each FNS field office. 3

                                       The Watch List utilizes data from both the ALERT system and another
                                       FNS system called the Store Tracking and Redemptions System (STARS).
                                       STARS is used by FNS to manage retailer participation in the program. It
                                       includes administrative information about the store, such as the name of the
                                       owner, the store’s location and hours, sales data, and so on. If compliance
                                       activities are conducted on a store, a compliance “case” will be opened in
                                       STARS. While this frequently results because a store appeared on the
                                       Watch List, there are other reasons for opening a case (for example, FNS
                                       might have received a whistleblower complaint or a referral from a local

2
  Although we use the terms "store" and “retailer” in this report, other types of organizations, such as wholesalers, meal services, group living
arrangements, and trade routes, may participate. For brevity, we will consider "store" to encompass all authorized firms.
3
  FNS’ 44 field offices (and 1 area office) nationwide are responsible for authorizing stores and monitoring their compliance with program requirements.

USDA/OIG-AUDIT/27099-32-SF                                                                                                                  Page 1
                                        agency). The details of the specific compliance actions taken are recorded
                                        in STARS. If FNS determines it unnecessary to open a case on a store
                                        appearing on the Watch List, the reason for not opening a case is recorded
                                        in the Watch List system rather than STARS.

                                        Field offices are required to review their pending stores to determine what
                                        additional action is warranted. Some stores may need no further review and
                                        can be immediately placed into a suspense category in the system. 4 In other
                                        cases, the field office may continue to monitor a store’s transactions, or
                                        gather additional information, before making a decision. Sometimes, the
                                        field office refers a store to FNS’ Retailer Investigations Branch for
                                        investigation. If the store is found to have violated program requirements,
                                        the field office can issue a warning letter to the store, assess it a monetary
                                        penalty, or disqualify it from the program. After all necessary actions have
                                        been taken, FNS will place the store in a closed status for a set time period
                                        so that it does not immediately reappear on the Watch List.

                                        FNS contracts with a private firm to administer the ALERT system. The
                                        contractor provides services including system design and coding,
                                        maintenance, training, technical support, and so on. The contract with this
                                        firm was renewed in late 2004, at which time a second private firm was
                                        contracted with to develop enhancements to the system such as more
                                        sophisticated fraud analyses and expansion of the types of data analyzed.

Objectives                              Our overall objective was to evaluate the effectiveness of the Watch List as
                                        a tool to identify fraud. To accomplish this, we evaluated (1) whether FNS
                                        field offices were processing Watch List cases in accordance with program
                                        requirements, (2) the adequacy of store type definitions, (3) FNS’ policies
                                        regarding whether supermarkets would be included in or excluded from the
                                        Watch List, and (4) the usefulness of Watch List reports.

                                        We had planned to evaluate whether ALERT store rankings reasonably
                                        reflected the potential risk of fraudulent activity (i.e., whether stores with
                                        high ALERT scores were determined to be violating program
                                        requirements). However, we found that the data necessary to make this
                                        assessment was not available. The impact of FNS not having this
                                        information is addressed in Finding 1.




4
    Moved from “pending” status to “closed” status in the Watch List system.

USDA/OIG-AUDIT/27099-32-SF                                                                                    Page 2
Findings and Recommendations
Section 1.           Watch List

                      Federal agencies are required, by Office of Management and Budget (OMB) Circular
                      A-123, “Management Accountability and Control,” to ensure that Government
                      resources are used efficiently and effectively. To accomplish this, they are required to
                      implement and assess management controls. 5 Management controls are defined as the
                      “tools to help program and financial managers achieve results and safeguard the
                      integrity of their programs.” 6

                      The process of monitoring retailer compliance is a management control intended to
                      safeguard the integrity of the Food Stamp program. Both ALERT and Watch List were
                      developed by FNS to assist in achieving that goal.

                      FNS’ ALERT system analyzes EBT transactions for patterns indicative of fraud and
                      then assigns each store a score—an ALERT rank. FNS officials and staff we
                      interviewed considered ALERT to be a highly valuable tool for identifying potentially
                      fraudulent retailers. Through the processing of vast amounts of transaction data, the
                      system is able to provide a level of fraud-detection analysis that staff could not
                      otherwise accomplish. The Watch List is a compilation of stores meeting predefined
                      parameters, which generally have the highest ALERT ranks.




Finding 1             FNS Has Not Assessed the Effectiveness of the Watch List

                      FNS could not assess whether the Watch List was an effective tool for identifying
                      fraud because it did not have the data available in ALERT to make that assessment,
                      including whether stores with high ALERT ranks were determined to be violating
                      program requirements. FNS plans to program the ALERT system to provide the data
                      necessary to conduct this type of analysis. However, FNS needs to complete certain
                      upgrades of its data systems, which are in process.

                      FNS implemented the Watch List in 2002. FNS field offices are required to review the
                      data that caused ALERT to flag each store on the Watch List and take the appropriate
                      action, such as:

                           •     Suspending the store in the Watch List system because the data patterns do not
                                 indicate trafficking is occurring;

5
  OMB Circular A-123, transmittal letter, item 2 (Policy) (dated June 1995). A revised version of Circular A-123 that was issued on December 21, 2004
and took effect on October 1, 2005 includes similar requirements.
6
  OMB Circular A-123, Introduction (dated June 1995).

USDA/OIG-AUDIT/27099-32-SF                                                                                                                Page 3
                              •     Gathering and analyzing additional data on the store because the initial data is
                                    inconclusive; or
                              •     Referring the store for investigation.

                         If violations are found, the store may be sanctioned (for example, disqualified from the
                         program or assessed a monetary penalty).

                         FNS does not record all information about actions taken (i.e., disposition data) on
                         individual Watch List stores in ALERT. The details of specific compliance actions
                         taken are recorded in STARS. However, STARS does not contain information on
                         ALERT rankings, and the ALERT system was not capable of providing a universe of
                         Watch List stores for a prior point in time which could be validated to STARS data.
                         Accordingly, FNS did not have the data in ALERT to evaluate the Watch List’s
                         effectiveness, and specifically whether stores with high ALERT ranks were
                         determined to be violating program requirements. The agency told us that that it
                         intends to perform this type of analysis, but upgrades to STARS and the ALERT
                         system are needed before it can begin programming ALERT to provide this data. The
                         upgrades to STARS were implemented in late 2004. The process of upgrading ALERT
                         began around the same time, but is still ongoing. FNS projects that it may be ready to
                         begin the recommended programming in late 2006.

                         FNS needs the information on the actions taken on individual stores to assess the
                         Watch List’s effectiveness in identifying fraud. With this information, FNS should be
                         able to determine:

                              •     How many Watch List pending stores received a detailed review, and what
                                    specific actions were taken on them;
                              •     How many of the reviews were performed by field office staff, and how many
                                    were referred to other entities for investigation;
                              •     How many of the reviewed stores were ultimately determined to be violating
                                    program requirements, and what actions were taken on them; and
                              •     Of the stores determined to be violating program requirements, how many
                                    cases originated as Watch List pending stores, and how many came from other
                                    sources.

                         Our audit found that, in fact, the Watch List was not operating as effectively as it
                         could have been. It was including stores that did not merit review. FNS staff referred
                         to these stores as “false hits,” meaning the stores appeared on the Watch List because
                         their transaction patterns resulted in high ranks on certain ALERT scans, but actually
                         represented the normal, legitimate practices of the store. Concerns about false hits
                         were widespread among the FNS staff we interviewed, who believed that dealing with
                         false hits was taking up time that could be used more productively. FNS staff
                         identified to us a number of types of stores, or specific store chains, that regularly
                         showed up as false hits. 7

7
    Details of the specific examples given us are not cited in this report, to prevent disclosure of information about how the ALERT scans operate.

USDA/OIG-AUDIT/27099-32-SF                                                                                                                      Page 4
            Having the answers to the above questions would allow FNS to better gauge the extent
            to which false hits are a problem, and then develop measures to minimize them. For
            example, FNS might be able to create special categories for certain types of stores, and
            then adjust how the scans operate to prevent their unique but legitimate transaction
            patterns from causing them to appear on the Watch List.

            Information on the actions taken on individual Watch List stores would also help FNS
            assess the overall effectiveness of the Watch List. This information could also help
            FNS assess the reliability of ALERT ranks. Higher ALERT rankings are intended to
            indicate a greater potential that the store is trafficking. By expanding the analysis
            described above to correlate the ALERT ranks of stores on the Watch List with the
            various outcomes, FNS may be able to improve the ranking process.

Recommendation 1

            Program the ALERT system to provide data on the disposition of stores appearing on
            the Watch List, to allow an analysis of the Watch List’s effectiveness in identifying
            fraud.

            Agency Response. In its written response to the draft audit report, dated July 12,
            2007, FNS stated it was in agreement with the finding and recommendation. Under the
            current ALERT contract, FNS is constructing a “data warehouse” utilizing a Statistical
            Analysis System tool, which will be capable of analyzing large volumes of data. The
            purpose of the data warehouse is to refine ALERT analysis to identify stores that may
            be overlooked and reduce the number of false hits. FNS expects that conclusions
            based on data warehouse analyses will be available in October, 2006, and that system
            adjustments will be made by February, 2007. FNS also expects to deploy reports to
            measure system effectiveness by January 2007.

            OIG Position. We accept FNS’ management decision on the recommendation.


Finding 2   FNS Needs to Implement Revised and Well-Defined Store Categories

            FNS field office staff did not always categorize stores in the STARS system in a
            logical and consistent manner because FNS (1) had established store-type categories
            that did not always group similar stores together and (2) had not provided guidance to
            staff to define the categories. To the extent that stores have been improperly
            categorized, ALERT will compare dissimilar stores’ transaction patterns, resulting in
            less reliable ALERT ranks and diminishing FNS’ ability to identify noncomplying
            stores.




USDA/OIG-AUDIT/27099-32-SF                                                                  Page 5
                         Prior to our audit, FNS had recognized these concerns and developed revised store
                         categories and definitions. However, because conversion will require significant time
                         and staff resources to accomplish, FNS has not yet put the revisions in place.

                         Prior to authorization, FNS assigns each store one of 31 store-type categories, such as
                         supermarket or convenience store. FNS records this and other information about the
                         store in STARS. In determining store type, field office staff consider information from
                         various sources, such as the application and pre-authorization store visits. Reports on
                         these visits, which are conducted by private contractors, include photographs of the
                         store, a sketch of its layout, and information from a questionnaire describing its
                         operations and characteristics.

                         FNS’ compliance monitoring activities are directly impacted by how FNS staff
                         categorizes a store. One approach used in some of the ALERT scans is to compare a
                         specific store’s transactions to those of other stores in its category. Deviations from
                         category averages can form the basis for charging a store with program violations, and
                         are generally cited in charge letters. Therefore, correct and consistent classification of
                         stores is important to the integrity of the process.

                         FNS does not provide its staff with store definitions, or guidance on how to categorize
                         a store. In general, staff learns how to categorize a store from co-workers in the field
                         office. The only written guidance available to field office staff came from a previous
                         version of the retailer application form, which provided limited definitions of
                         supermarkets (i.e., a store with annual gross sales of $2 million or more) and specialty
                         food stores (“meat store, fish store, bakery, etc.”). However, the current application
                         (September 2004 revision) eliminates these definitions.

                         To compare how different regions and field offices categorize stores, we interviewed
                         field office staff in each FNS region, and reviewed store listings for each of the
                         sampled field offices. We identified significant variations in how similar stores were
                         categorized. Examples of the inconsistencies we found include the following.

                               •     While “super” versions of major discounters, such as Wal-Mart SuperCenters
                                     and Super Targets, were consistently classified as supermarkets, standard size
                                     versions of the chains were not. For example, Big K-Marts (standard-size
                                     stores) were categorized as general stores, other grocery combination stores, or
                                     supermarkets, depending on the field office.
                               •     Some field offices categorized chain convenience stores with gas pumps, such
                                     as 7-Elevens and Circle K’s, as grocery/gas combinations, while others
                                     categorized them as convenience stores.
                               •     Some regions classified ethnic stores (for example, those specializing in Asian
                                     food) using the standard small/medium grocery or supermarket categories, but
                                     other regions considered them specialty food or other food stores. 8


8
    We also noted that the contractor store visit handbook states ethnic stores are a type of specialty food store.

USDA/OIG-AUDIT/27099-32-SF                                                                                            Page 6
           As of mid-2003, FNS had established a working group to revise and define store-type
           categories. As of the time of our audit, it had drafted new categories and
           corresponding definitions. The proposed definitions eliminated or combined some
           store types, split others into multiple store types, and added some new store types. For
           the most part, the new categories appeared to address the issues raised to us by field
           office staff. However, because many of the approximately 160,000 participating stores
           will have to be manually converted to the new categories, a highly labor-intensive
           process, conversion will require significant time and staff resources to accomplish. For
           this reason, FNS has not yet put the revisions in place.

Recommendation 2

           Develop a plan and timeframe for implementing the revised store type categories.

           Agency Response. See response to Recommendation 3.

           OIG Position. See position on Recommendation 3.

Recommendation 3

           Develop written guidance which defines store type categories and distribute it to all
           field office staff.

           Agency Response. In its written response to the draft audit report, dated July 12,
           2007, FNS stated it was in agreement with the findings and recommendations. FNS is
           currently developing firm (store) type definitions, which will be tested and built into
           the STARS system. FNS expects to implement the definitions in June, 2007.

           OIG Position. We accept FNS’ management decision on the recommendations.




USDA/OIG-AUDIT/27099-32-SF                                                                 Page 7
Scope and Methodology
             This audit was conducted to review the ALERT and Watch List systems, which are
             management controls over FNS’ Food Stamp Program. The scope of the audit included
             Federal Fiscal Year 2005, the current year at the time fieldwork was conducted. During the
             audit, we conducted fieldwork at the FNS National Office in Alexandria, Virginia; FNS’
             Southeast Regional Office in Atlanta, Georgia; and FNS field offices in Atlanta, Georgia;
             Montgomery, Alabama; and Tallahassee, Florida. Audit field work was conducted between
             January and August 2005.

             This audit was performed in accordance with generally accepted government auditing
             standards. To accomplish our audit objectives, we performed the following audit steps and
             procedures:

                  •    We reviewed regulations, policies, and background information relating to Food
                       Stamp Program retailer compliance.
                  •    We interviewed FNS officials and staff, and obtained and reviewed various records,
                       during our visits to FNS’ national, regional, and field offices.
                  •    We interviewed by telephone FNS personnel at the regional and field office level in
                       FNS’ six other regions.
                  •    We reviewed reports and data extracted from various FNS data systems, including
                       STARS, ESSRA, 9 ALERT, and Watch List.




9
    Extract System for STARS, REDE, and ALERT (REDE, or Retailer Electronic Data Exchange, is another FNS data system.)

USDA/OIG-AUDIT/27099-32-SF                                                                                                Page 8
Exhibit A – Agency Response
                              Exhibit A – Page 1 of 2




USDA/OIG-AUDIT/27099-32-SF                 Page 9
Exhibit A – Agency Response
                              Exhibit A – Page 2 of 2




USDA/OIG-AUDIT/27099-32-SF               Page 10
Informational copies of this report have been distributed to:

Office of the Chief Financial Officer
 Director, Planning and Accountability Division (1)
Administrator, FNS (8)
 Attn: Agency Liaison Officer
Government Accountability Office (1)
Office of Management and Budget (1)
